                                      Executive Summary
                                      Invoices Submitted by Lockheed Martin
                                      Services, Inc. under the FDIC’s Data
                                      Management Services Contract
                                                                                       Report No. AUD-13-002
                                                                                                October 2012

Why We Did The Audit
In fulfilling its responsibilities as receiver for failed FDIC-insured financial institutions, the FDIC retains
electronically stored institution information and documentation to meet its fiduciary requirements, resolve
legal issues, and provide ongoing customer service. To accommodate the enormous data conversion and
storage demands associated with the large number of institution failures in recent years, the FDIC entered
into a contract (the Contract) with Lockheed Martin Services, Inc. (Lockheed) for data management
services. The Contract requires Lockheed to provide the FDIC with a standard method of maintaining
failed institution data, including secure data migration, conversion, cataloging, indexing, storage, security,
and retrieval.

In view of the significance of the Contract, the Office of Inspector General (OIG) engaged Reed &
Associates, CPAs, Inc. (Reed) to conduct a performance audit of Lockheed’s invoices. The performance
audit objective was to determine whether charges paid by the FDIC to Lockheed were adequately
supported, allowable under the terms and conditions of the contract, and reasonable. The audit covered
payments made during the period November 1, 2008 through May 31, 2011. The audit also included an
assessment of compliance with a provision in the Contract requiring Lockheed, its employees, and its
subcontractor employees to execute confidentiality agreements with the FDIC to mitigate the risk of
unauthorized disclosure of sensitive information.


Background
The FDIC procures services under the Contract through task orders that may be awarded on either a firm
fixed price or time and materials basis. Under firm fixed price task orders, the FDIC pays Lockheed an
agreed-upon amount or service rate for satisfactory performance that covers the contractor’s costs and
expenses (direct and indirect) as well as any profit, fees, or markups. The FDIC awards firm fixed price
task orders to procure such things as data storage and data center maintenance and system monitoring and
reporting. Under time and materials task orders, the FDIC compensates Lockheed for actual productive
work at the hourly rates specified in the Contract; reimburses Lockheed for necessary travel and per diem
expenses that do not exceed the limitations in the FDIC Contractor Travel Reimbursement Guidelines;
and pays reasonable amounts for materials that Lockheed has been invoiced. The FDIC awards time and
materials task orders to procure such services as the capture and migration of data from failed institutions
to Lockheed’s data center and the imaging and indexing of hardcopy documents. When appropriate,
Lockheed uses credit invoices to reimburse the FDIC for overcharges that are identified during the firm’s
internal reviews and reconciliations of labor, travel, materials, and other charges.

The Contract, which became effective on November 1, 2008, has an initial 3-year base period of
performance and two 2-year option periods, for a total potential period of performance of 7 years. As of
May 31, 2011, the FDIC had awarded 78 task orders with a total value of $327,872,811 under the
Contract. As of the same date, the FDIC had paid 8,902 invoices totaling $158,352,966. The Contract
has no ceiling price.


Audit Results
Except as described below, charges paid to Lockheed that Reed reviewed were adequately supported,
allowable under the terms and conditions of the Contract, and reasonable. Specifically, all $8,310,150 of
the firm fixed price costs reviewed were adequately supported, consistent with the rates approved in the
Contract, and reasonable. Accordingly, Reed did not question any firm fixed price costs. In addition,
                                                       i
                                     Invoices Submitted by Lockheed Martin
  Executive Summary
                                     Services, Inc. under the FDIC’s Data
                                     Management Services Contract
                                                                                     Report No. AUD-13-002
                                                                                              October 2012

Reed did not question any of the $121,476 in credits that it reviewed. However, Reed did identify a total
of $740,784 in questioned costs pertaining to other categories of reviewed charges. We will include these
questioned costs in our next Semiannual Report to the Congress. The amount ultimately disallowed by
the FDIC could change based on final management decisions after evaluating the findings and
recommendations included in the report. In summary, Reed questioned:

       $140,079 (or about 2 percent) of the $7,020,304 in time and materials costs reviewed. These
        questioned costs consisted of $29,731 in labor, $102,496 in travel, and $7,852 in materials. Of
        the total amount questioned, $137,958 was unsupported.

       $123,014 in costs resulting from the misclassification of a subcontractor employee’s labor
        category. Lockheed identified this misclassification in November 2010, but as of the end of our
        fieldwork, the FDIC had not been reimbursed for the overcharge.

       $477,691 in unallowable indirect costs that Lockheed applied to travel expenses. Although
        Lockheed agreed in February 2011 to process a credit for this amount against future invoices
        submitted under the Contract, the credit had not been processed as of the end of our fieldwork.

Using statistical sampling techniques, Reed estimated that there is a 90-percent probability that the
amount of questioned costs billed to the FDIC under the Contract’s time and materials task orders through
May 31, 2011 is not less than $583,390. This estimated amount does not include questioned costs for the
labor category misclassification or the indirect costs on travel because the underlying causes were isolated
matters. The report does not recommend that the FDIC disallow this amount, and we do not plan to
recognize the amount as a questioned cost in our Semiannual Report to the Congress. Instead, the
estimated amount is an indication of the potential payment risk under the Contract that the FDIC should
consider as part of its ongoing contract administration and oversight management activities.

Further, confidentiality agreements were not consistently executed and maintained for contractor and
subcontractor employees assigned to the Contract. Finally, the report includes an observation pertaining
to the FDIC’s oversight management of the Contract.


Recommendations and Corporation Comments
The report contains a total of six recommendations. Three of the recommendations are aimed at
recovering unallowable and unsupported questioned costs that were charged by Lockheed and paid under
the Contact. The remaining three recommendations are intended to enhance the FDIC’s contract
administration and oversight management controls and practices.

FDIC management provided a written response, dated September 25, 2012, to a draft of the report. In the
response, management concurred with all six of the report’s recommendations, described completed and
planned corrective actions to address each recommendation, and noted that action had been taken to
address the report’s observation on the FDIC’s oversight management of the Contract. Further, relevant
portions of the draft report were provided to Lockheed for its review and informal comment. The OIG
and Reed considered Lockheed’s informal comments before the report was finalized.

Because this report contains sensitive information, we do not intend to make the report available to the
public in its entirety. We will, however, post this Executive Summary on our public Web site.


                                                     ii
